               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-00026-352




       Community Based Outpatient 

             Clinic Reviews 

                    at 

          VA Western New York 

           Healthcare System 

              Buffalo, NY 





October 25, 2013

                       Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                           CBOC Reviews at VA Western New York HCS



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       HCS      Healthcare System
                       MH       mental health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       PII      personally identifiable information
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                         CBOC Reviews at VA Western New York HCS



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 2 Interim Director Comments ...................................................................                        12

  B. VA Western New York HCS Director Comments...............................................                                    13

  C. OIG Contact and Staff Acknowledgments .........................................................                             16

  D. Report Distribution .............................................................................................           17





VA OIG Office of Healthcare Inspections
                                                      CBOC Reviews at VA Western New York HCS



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of August 12, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the parent facility. The C&P, EOC,
and emergency management onsite inspections were only conducted at the randomly
selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name             Location
                VA Western New             Lackawanna            Lackawanna, NY
       2
                York HCS                   Niagara Falls         Niagara Falls, NY
                                     Table 1. Sites Inspected

Review Results: We made recommendations in four review areas.

Recommendations:        The VISN and HCS Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that the ordering provider or surrogate is notified of normal cervical cancer
   screening results within the required timeframe and that notification is documented
   in the EHR.

	 Ensure that patients with normal cervical cancer screening results are notified of
   results within the required timeframe and that notification is documented in the EHR.

	 Ensure that clinicians document all required tetanus and pneumococcal vaccine
   administration elements and that compliance is monitored.

	 Ensure that the Executive Committee of the Medical Staff grants privileges
   consistent with the services provided at the Lackawanna and Niagara Falls CBOCs.



VA OIG Office of Healthcare Inspections                                                    i
                                                CBOC Reviews at VA Western New York HCS


	 Ensure that laboratory specimens are secured during transport from the
   Lackawanna and Niagara Falls CBOCs to the parent facility to prevent the
   disclosure of patients’ PII.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A
and B, pages 12–15, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                  JOHN D. DAIGH, JR., M.D.
                                                 Assistant Inspector General for
                                                      Healthcare Inspections




VA OIG Office of Healthcare Inspections                                              ii
                                                              CBOC Reviews at VA Western New York HCS



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to Centers for Disease Control and Prevention guidelines and VHA
   recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and


1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                 CBOC Reviews at VA Western New York HCS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                               2
                                                                                                            CBOC Reviews at VA Western New York HCS



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                Uniques FY           Visits FY
                                                                                         6
VISN             Parent Facility                     CBOC Name             Locality               20127                20127            CBOC Size8
                                                         Dunkirk            Rural                  1,771               6,986             Mid-Size
                                                     (Dunkirk, NY)
                                                       Jamestown            Rural                   1,985               8,751              Mid-Size
                                                  (Jamestown, NY)
                                                      Lackawanna            Urban                   3,004              11,657              Mid-Size
                                                 (Lackawanna, NY)
    2       Western New York HCS
                                                        Lockport            Rural                   1,374               5,674               Small
                                                    (Lockport, NY)
                                                     Niagara Falls          Urban                   1,858               9,283              Mid-Size
                                                 (Niagara Falls, NY)
                                                         Olean              Rural                   1,923               9,425              Mid-Size
                                                      (Olean, NY)
                                                                 Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                               CBOC Reviews at VA Western New York HCS



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH program employees. Table 3 shows the
areas reviewed for this topic.      The review elements marked as NC needed
improvement. Details regarding the findings follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
              X                The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 22 patients who received a cervical cancer screening at the VA Western
New York HCS’s CBOCs.

Provider Notification. VHA requires that normal cervical cancer screening results must
be reported to the ordering provider or surrogate within 30 calendar days of the report
being issued and the notification is documented in the EHR.12 We reviewed the EHRs
of 21 patients who had normal cervical cancer screening results and did not find
documentation in 10 records that the ordering providers or surrogates were notified
within 30 calendar days.



9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

12
   VHA Handbook 1330.01. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                               CBOC Reviews at VA Western New York HCS


Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 21 EHRs of patients who had normal cervical cancer
screening results and determined that 11 patients were not notified within the required
14 days from the date the pathology reports became available.

Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal cervical cancer screening results within the required
timeframe and that notification is documented in the EHR.

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The Centers for Disease Control and Prevention states that although
vaccine-preventable disease levels are at or near record lows, many adults are under-
immunized, missing opportunities to protect themselves against tetanus and
pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element
marked as NC needed improvement. Details regarding the finding follow the table.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
                      Staff administered the pneumococcal vaccine when indicated.
           X          Staff properly documented vaccine administration.
                                             Table 4. Vaccinations



13
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.


VA OIG Office of Healthcare Inspections                                                                      5
                                                                CBOC Reviews at VA Western New York HCS


Documentation of Vaccinations.        Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
lot number of the vaccine used.14 We reviewed the EHRs of 15 patients who received a
tetanus vaccine administration at the parent facility or its associated CBOCs and did not
find documentation of all the required information related to tetanus vaccine
administration in 3 of the EHRs. We reviewed the EHRs of 26 patients who received a
pneumococcal vaccine administration at the parent facility or its associated CBOCs and
did not find documentation of all the required information related to pneumococcal
vaccine administration in 8 of the EHRs.

Recommendation

3. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccine administration elements and that compliance is
monitored.




14
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                              6
                                                           CBOC Reviews at VA Western New York HCS



                               Onsite Reviews 

                        Results and Recommendations 

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                               Lackawanna                       Niagara Falls
     VISN                                           2                                2
     Parent Facility                         Western New York                Western New York
                                                   HCS                             HCS
     Types of Providers                   Licensed Clinical Social        Licensed Clinical Social
                                                  Worker                          Worker
                                             Nurse Practitioner              Nurse Practitioner
                                            Physician Assistant           Primary Care Physician
                                          Primary Care Physician
     Number of MH Uniques,                          462                               303
     FY 2012
     Number of MH Visits, FY                       2,786                             2,022
     2012
     MH Services Onsite                             Yes                               Yes
     Specialty Care Services                         No                               No
     Onsite
     Ancillary Services                              No                               No
     Provided Onsite
     Tele-Health Services                           MH                           Audiology
                                              Retinal Imaging                   Dermatology
                                                                                     MH
                                                                                  MOVE15
                                                                               Retinal Imaging
                                                                                Wound Care
                                      Table 5. Characteristics




15
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                              7
                                                     CBOC Reviews at VA Western New York HCS




C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.16 Table 6 shows the areas reviewed for this topic. The CBOCs identified as
NC needed improvement. Details regarding the findings follow the table.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
      Lackawanna         Privileges granted to providers were setting, service, and provider
      Niagara Falls      specific.

16
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                     CBOC Reviews at VA Western New York HCS


         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

Clinical Privileges. The Executive Committee of the Medical Staff granted clinical
privileges for procedures that were not performed at the Lackawanna and Niagara Falls
CBOCs for two of five providers. The providers were granted privileges that included
arterial punctures and insertion of nasogastric tubes.

Recommendation

4. We recommended that the Executive Committee of the Medical Staff grants
privileges consistent with the services provided at the Lackawanna and Niagara Falls
CBOCs.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOCs identified as NC needed improvement. Details regarding the findings follow the
table.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained



VA OIG Office of Healthcare Inspections                                                   9
                                                    CBOC Reviews at VA Western New York HCS


          NC                              Areas Reviewed (continued)
                      Patients’ personally identifiable information was secured and
                      protected.
     Lackawanna       Laboratory specimens were transported securely to prevent
     Niagara Falls    unauthorized access.
                      Staff used two patient identifiers for blood drawing procedures.
                      Information Technology security rules were adhered to.
                      There was alcohol hand wash or a soap dispenser and sink available
                      in each examination room.
                      Sharps containers were less than 3/4 full.
                      Safety needle devices were available for staff use (e.g., lancets,
                      injection needles, phlebotomy needles).
                      The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC

PII. We found that the transportation of laboratory specimens from the Lackawanna
and Niagara Falls CBOCs to the parent facility did not ensure the security of patients’
PII. CBOC staff placed the specimens in an unlocked plastic box, and the facility van
driver transported the box in an unlocked zipper bag to the parent facility for processing.
The specimen labels disclosed patients’ names and social security numbers. The
specimen containers were not locked; therefore, staff could not ensure the security of
patients’ PII.

Recommendation

5. We recommended that laboratory specimens are secured during transport from the
Lackawanna and Niagara Falls CBOCs to the parent facility to prevent the disclosure of
patients’ PII.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic.

           NC                                     Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.



17
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                  10
                                                    CBOC Reviews at VA Western New York HCS


        NC                              Areas Reviewed (continued)
                     The staff articulated the procedural steps of the MH emergency
                     plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                                 11
                                                   CBOC Reviews at VA Western New York HCS
                                                                                Appendix A
                               VISN 2 Director Comments


               Department of
               Veterans Affairs                              Memorandum


       Date: 	          September 20, 2013

       From: 	          Interim Network Director, VISN 2 (10N2)

       Subject: 	       CBOC Reviews at VA Western New York HCS

       To: 	            Director, Bedford Regional Office of Healthcare Inspections
                        (54BN)

                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)

       1. I concur with the conclusions and recommendations presented by the
          Office of Healthcare Inspection, and present to you a plan of action to
          correct those areas with findings and recommendations.

       2. If you have any questions, please contact Kathryn Varkonda, RN,
          MSN, Performance Manager, VA Western New York Healthcare
          System at 716-862-6380.



       (original signed by:)

       James Cody, FACHE




VA OIG Office of Healthcare Inspections                                                12
                                                   CBOC Reviews at VA Western New York HCS
                                                                                Appendix B
             VA Western New York HCS Director Comments



               Department of
               Veterans Affairs                              Memorandum


       Date:           September 20, 2013

       From:           Director, VA Western New York HCS (528/00)

       Subject:        CBOC Reviews at VA Western New York HCS

       To:             Interim Network Director, VISN 2 (10N2)

                       1. Thank you for the opportunity to review and respond to
                       the subject report.

                       2. I concur with the conclusions and recommendations
                       presented by the Office of Healthcare Inspection, and
                       present to you a plan of action designed to correct those
                       areas with findings and recommendations.

                       3. If you have any questions or need further information,
                       please contact Kathryn Varkonda, RN, MSN, Veterans
                       Affairs Western New York Healthcare System Performance
                       Manager at (716) 862-6380.



                       (original signed by:)

                       BRIAN G. STILLER 

                       Medical Center Director 





VA OIG Office of Healthcare Inspections                                                13
                                                  CBOC Reviews at VA Western New York HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that a process is established to ensure that the ordering provider
or surrogate is notified of normal cervical cancer screening results within the required
timeframe and that notification is documented in the EHR.

Concur

Target date for completion: January 17, 2014

Facility Response: WH program manager will be receiving a list of the Cervical Cancer
screenings performed throughout the facility from the lab, and will ensure that provider
or surrogate are notified of the results. An audit will be conducted monthly to ensure
that this is happening in a timely manner, and emails educating providers and other staff
has been sent out to remind them of the process for notification of results.

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: January 17, 2014

Facility Response: WH program manager will be receiving a list of the Cervical Cancer
screenings performed throughout the facility from the lab, and will ensure that patients
are notified of results within the required timeframe and that notification is documented
in the EHR. Emails educating providers and other staff have been sent out to remind
them of the process for patient notification of results and documentation.

An audit will be conducted monthly to ensure that patient notification is completed within
the required timeframe with documentation in the EHR. Thirty charts per month will be
audited. If the number is < 30, 100% of charts will be audited.

Education of staff completed in September. Monthly audits will commence in October
2013.

In progress.




VA OIG Office of Healthcare Inspections                                                14
                                                 CBOC Reviews at VA Western New York HCS


3. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccine administration elements and that compliance is
monitored.

Concur

Target date for completion: October 17, 2013

Facility Response: Staff have been educated on all required tetanus and pneumococcal
vaccine administration documentation elements in EHR.

An audit will be conducted monthly to ensure compliance with documentation of all
required elements for tetanus and pneumococcal vaccine administration. Thirty charts
per month will be audited. If the number is < 30, 100% of charts will be audited.

Education of staff completed in September. Monthly audits will commence in October
2013.

In progress.

4. We recommended that the Executive Committee of the Medical Staff grants
privileges consistent with the services provided at the Lackawanna and Niagara Falls
CBOCs.

Concur

Target date for completion: January 17, 2014

Facility Response: Privileging process will be reviewed and, moving forward, a system
will be in place that ensures privileges granted consistent with services at the specific
site.

5. We recommended that laboratory specimens are secured during transport from the
Lackawanna and Niagara Falls CBOCs to the parent facility to prevent the disclosure of
patients’ PII.

Concur

Target date for completion: October 17, 2014

Facility Response: We have acquired plastic locks that will be used in the green duffle
bag that is used for carrying laboratory specimens from the CBOCs to the Lab in
Buffalo. Lab personnel at the CBOC will secure the duffle bag with plastic lock, which
will be opened in the medical center lab by the VA staff member receiving the laboratory
specimens.




VA OIG Office of Healthcare Inspections                                               15
                                                   CBOC Reviews at VA Western New York HCS
                                                                                Appendix C


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite	                 Elaine Kahigian, RN, JD, Team Leader
Contributors 	          Annette Acosta, RN, MN
                        Frank Keslof, EMT, MHA
                        Jeanne Martin, PharmD
                        Clarissa Reynolds, CNHA, MBA
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeffrey Joppie, BS
                        Claire McDonald, MPA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  16
                                                CBOC Reviews at VA Western New York HCS
                                                                             Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 2 (10N2)
Director, VA Western New York HCS (528/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Chris Collins, Brian Higgins


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              17
